                                                    81950                              Federal Register / Vol. 76, No. 250 / Thursday, December 29, 2011 / Notices

                                                    2,500 hours). Thus, the total estimated                                   pretest, and 1,320 fewer hours for the                                       sample sizes in the pretest and survey.
                                                    burden is 3,906 hours. This estimate is                                   survey invitation. Recent evidence                                           The number of pretests was changed
                                                    1,352 hours lower than the 5,258 hours                                    available to the Agency suggests the                                         from 200 to 150 to correct an error that
                                                    published in the 60-day notice and                                        study will not need to send as many                                          was made in the 60-day notice.
                                                    reflects 20 fewer hours for the pretest                                   pretest or survey invitations as                                                FDA estimates the burden of this
                                                    invitation, 12 fewer hours for the                                        originally estimated to achieve its target                                   collection of information as follows:

                                                                                                                  TABLE 1—ESTIMATED ANNUAL REPORTING BURDEN 1
                                                                                                                                                                  Number of
                                                                                                                                       Number of                                            Total annual               Average burden per
                                                                                     Activity                                                                   responses per                                                                                Total hours
                                                                                                                                      respondents                                            responses                      response
                                                                                                                                                                  respondent

                                                    Cognitive Interview Screener ...................................                                 72                              1                      72        0.083 (5 min.) ............                       6
                                                    Cognitive Interview ...................................................                           9                              1                       9        1 ................................                9
                                                    Pretest Invitation ......................................................                     1,000                              1                   1,000        0.033 (2 min.) ............                      33
                                                    Pretest ......................................................................                  150                              1                     150        0.25 (15 min.) ............                      38
                                                    Survey Invitation ......................................................                     40,000                              1                  40,000        0.033 (2 min.) ............                   1,320
                                                    Survey ......................................................................                10,000                              1                  10,000        0.25 (15 min.) ............                   2,500

                                                          Total ..................................................................   ........................   ........................   ........................   ....................................          3,906
                                                       1 There     are no capital costs or operating and maintenance costs associated with this collection of information.


                                                    II. References                                                                 Knowledge on the Effectiveness of Daily                                      ResourcesForYou/Consumers/NFLPM/
                                                                                                                                   Value Reference Information,’’ Journal of                                    ucm281746.htm), 2011.
                                                       The following references have been                                          the Academy of Marketing Science, vol.                                  17. Food and Drug Administration, ‘‘Spot the
                                                    placed on display in the Division of                                           28, pp. 425–436, 2000.                                                       Block: Cartoon Network and the FDA
                                                    Dockets Management (HFA–305), Food                                        8. Levy, L., R.E. Patterson, A.R. Kristal, et al.,                                Encourage Kids to SPOT THE BLOCK,’’
                                                    and Drug Administration, 5630 Fishers                                          ‘‘How Well Do Consumers Understand                                           (http://www.fda.gov/ForConsumers/
                                                    Lane, Rm. 1061, Rockville, MD 20852,                                           Percentage Daily Value on Food Labels?’’                                     ConsumerUpdates/ucm048815.htm),
                                                    and may be seen by interested persons                                          American Journal of Health Promotion,                                        2011.
                                                    between 9 a.m. and 4 p.m., Monday                                              vol. 14, pp. 157–160, 2000.                                             18. American Association for Public Opinion
                                                                                                                              9. U.S. Department of Agriculture and U.S.                                        Research (AAPOR). ‘‘AAPOR Report on
                                                    through Friday. (FDA has verified the
                                                                                                                                   Department of Health and Human                                               Online Panels,’’ (http://www.aapor.org/
                                                    Web site addresses, but we are not                                             Services, ‘‘Dietary Guidelines for                                           AM/Template.cfm?Section=AAPOR_
                                                    responsible for any subsequent changes                                         Americans, 2010,’’ 7th Edition,                                              Committee_and_Task_Force_
                                                    to the Web sites after this document is                                        Washington, DC: U.S. Government                                              Reports&Template=/CM/
                                                    published in the Federal Register.)                                            Printing Office, December 2010.                                              ContentDisplay.cfm&ContentID=2223),
                                                    1. Levy, A.S., S.B. Fein, and R.E. Schucker,                              10. Institute of Medicine, ‘‘Dietary Reference                                    March 2010.
                                                         ‘‘Nutrition Labeling Formats:                                             Intakes: Guiding Principles for Nutrition
                                                                                                                                   Labeling and Fortification,’’ (http://                                    Dated: December 22, 2011.
                                                         Performance and Preference,’’ Food
                                                                                                                                   www.nap.edu/                                                            Leslie Kux,
                                                         Technology, vol. 45, pp. 116–121, 1991.
                                                    2. Levy, A.S., S.B. Fein, and R.E. Schucker,                                   catalog.php?record_id=10872), 2003.                                     Acting Assistant Commissioner for Policy.
                                                         ‘‘More Effective Nutrition Label Formats                             11. Block, L.G. and L.A. Peracchio, ‘‘The                                    [FR Doc. 2011–33303 Filed 12–28–11; 8:45 am]
                                                         Are Not Necessarily Preferred,’’ Journal                                  Calcium Quandary: How Consumers Use
                                                                                                                                                                                                           BILLING CODE 4160–01–P
                                                         of the American Dietetic Association,                                     Nutrition Labels,’’ Journal of Public
                                                         vol. 92, pp. 1230–1234, 1992.                                             Policy and Marketing, vol. 25, pp. 188–
                                                    3. Levy, A.S., S.B. Fein, and R.E. Schucker,                                   196, 2006.
                                                                                                                              12. Food and Drug Administration, ‘‘A Key                                    DEPARTMENT OF HEALTH AND
                                                         ‘‘Performance Characteristics of Seven
                                                         Nutrition Label Formats,’’ Journal of                                     to Choosing Healthful Foods: Using the                                  HUMAN SERVICES
                                                         Public Policy and Marketing, vol. 15, pp.                                 Nutrition Facts on the Food Label,’’
                                                         1–15, 1996.                                                               (http://www.fda.gov/Food/                                               Office of Inspector General
                                                    4. Lando, A.M. and J. Labiner-Wolfe,                                           ResourcesForYou/Consumers/
                                                                                                                                   ucm079449.htm), 2011.                                                   [Docket ID OIG 910–N]
                                                         ‘‘Helping Consumers Make More
                                                         Healthful Food Choices: Consumer                                     13. Food and Drug Administration, ‘‘The
                                                                                                                                   Food Label and You—Video,’’ (http://                                    Privacy Act; System of Records
                                                         Views on Modifying Food Labels and
                                                         Providing Point-of-Purchase Nutrition                                     www.fda.gov/Food/ResourcesForYou/                                       AGENCY:        Office of Inspector General,
                                                         Information at Quick-Service                                              Consumers/NFLPM/ucm275409.htm),
                                                                                                                                   2011.
                                                                                                                                                                                                           HHS.
                                                         Restaurants,’’ Journal of Nutrition
                                                         Education and Behavior, vol. 39, pp.                                 14. Food and Drug Administration, ‘‘How to                                   ACTION:  Notice of amendment to system
                                                         157–163, 2007.                                                            Understand and Use the Nutrition Facts                                  of existing records.
                                                    5. Food and Drug Administration, ‘‘Calories                                    Label,’’ (http://www.fda.gov/Food/
                                                         Count: Report of the Working Group on                                     ResourcesForYou/Consumers/NFLPM/                                        SUMMARY:   In accordance with the
                                                         Obesity,’’ (http://www.fda.gov/Food/                                      ucm274593.htm), 2011.                                                   Privacy Act of 1974, as amended, the
                                                         LabelingNutrition/ReportsResearch/                                   15. U.S. Food and Drug Administration,                                       Office of Inspector General gives notice
wreier-aviles on DSK3TPTVN1PROD with NOTICES




                                                         ucm081696.htm), 2004.                                                     ‘‘Using the Nutrition Facts Label. A                                    of a proposed amendment to its Privacy
                                                    6. Food and Drug Administration, ‘‘2008                                        How-to Guide for Older Adults,’’                                        Act system of records entitled
                                                         Health and Diet Survey—Topline                                            (http://www.fda.gov/Food/
                                                                                                                                                                                                           ‘‘Consolidated Data Repository’’ (09–90–
                                                         Frequencies (Weighted),’’ (http://                                        ResourcesForYou/Consumers/
                                                         www.fda.gov/Food/ScienceResearch/                                         ucm267499.htm), 2010.                                                   1000). This system of records is being
                                                         ResearchAreas/ConsumerResearch/                                      16. Food and Drug Administration, ‘‘Spot the                                 amended to include records regarding
                                                         ucm193895.htm), 2010.                                                     Block Using the Nutrition Facts Label to                                Federal and State benefit programs and
                                                    7. Li, F., P.W. Miniard, and M.J. Barone, ‘‘The                                Make Healthy Food Choices—A Program                                     service providers in Federal health care
                                                         Facilitating Influence of Consumer                                        for Tweens,’’ (http://www.fda.gov/Food/                                 programs.


                                               VerDate Mar<15>2010         15:12 Dec 28, 2011         Jkt 226001      PO 00000       Frm 00042        Fmt 4703      Sfmt 4703        E:\FR\FM\29DEN1.SGM              29DEN1
                                                                              Federal Register / Vol. 76, No. 250 / Thursday, December 29, 2011 / Notices                                                81951

                                                    DATES:   Effective Date: This system of                 the following: ‘‘Sources of information                 Dated: December 22, 2011.
                                                    records will become effective without                   in this records system include: Federal,              Jennifer S. Spaeth,
                                                    further notice on February 27, 2012,                    State, and local government records                   Director, Office of Federal Advisory
                                                    unless comments received on or before                   regarding Medicare, Medicaid, and                     Committee Policy.
                                                    that date result in a contrary                          other benefit programs; Department                    [FR Doc. 2011–33494 Filed 12–28–11; 8:45 am]
                                                    determination.                                          documents and records; materials                      BILLING CODE 4140–01–P
                                                       Comment Date: Comments on this                       regarding service providers in Federal
                                                    amendment to the system of records                      health care programs furnished by
                                                    will be considered if we receive them at                nongovernmental sources; and public                   DEPARTMENT OF HEALTH AND
                                                    the addresses provided below no later                   source materials.’’                                   HUMAN SERVICES
                                                    than 5 p.m. on January 30, 2012.                          Dated: December 22, 2011.
                                                    ADDRESSES: You may submit your                          Daniel R. Levinson,
                                                                                                                                                                  National Institutes of Health
                                                    written comments, identified by OIG–                    Inspector General.                                    Center for Scientific Review; Notice of
                                                    910–N, by any of the following methods:                 [FR Doc. 2011–33346 Filed 12–28–11; 8:45 am]          Closed Meetings
                                                       • Federal Rulemaking Portal: http://                 BILLING CODE 4152–01–P
                                                    www.regulations.gov. Follow the online
                                                                                                                                                                    Pursuant to section 10(d) of the
                                                    instructions for submitting comments.
                                                                                                                                                                  Federal Advisory Committee Act, as
                                                       • Mail or Delivery: Office of Inspector              DEPARTMENT OF HEALTH AND                              amended (5 U.S.C. App.), notice is
                                                    General, Department of Health and                       HUMAN SERVICES                                        hereby given of the following meetings.
                                                    Human Services, Attention: OIG–910–N,
                                                    Room 5541, Cohen Building, 330                          National Institutes of Health                           The meetings will be closed to the
                                                    Independence Avenue SW.,                                                                                      public in accordance with the
                                                    Washington, DC 20201.                                   National Institute of Neurological                    provisions set forth in sections
                                                       Instructions: We do not accept                       Disorders and Stroke; Notice of Closed                552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
                                                    comments by facsimile (FAX)                             Meeting                                               as amended. The grant applications and
                                                    transmission. All submissions received                                                                        the discussions could disclose
                                                                                                              Pursuant to section 10(d) of the
                                                    must include the agency name and                                                                              confidential trade secrets or commercial
                                                                                                            Federal Advisory Committee Act, as
                                                    docket number for this Federal Register                                                                       property such as patentable material,
                                                                                                            amended (5 U.S.C. App.), notice is
                                                    document. The general policy for                                                                              and personal information concerning
                                                                                                            hereby given of a meeting of the Board
                                                    comment submissions from members of                                                                           individuals associated with the grant
                                                                                                            of Scientific Counselors, National
                                                    the public is to make these available for                                                                     applications, the disclosure of which
                                                                                                            Advisory Neurological Disorders and
                                                    public viewing on http://                                                                                     would constitute a clearly unwarranted
                                                                                                            Stroke.
                                                    www.regulations.gov after receipt. All                    The meeting will be closed to the                   invasion of personal privacy.
                                                    comments, including attachments and                     public as indicated below in accordance                 Name of Committee: Center for Scientific
                                                    other supporting materials, received are                with the provisions set forth in sections             Review Special Emphasis Panel Skeletal
                                                    subject to public disclosure.                           552b(c)(6), Title 5 U.S.C., as amended                Healing, Regeneration and Repair.
                                                    FOR FURTHER INFORMATION CONTACT:                        for the review, discussion, and                         Date: January 18, 2012.
                                                                                                                                                                    Time: 11 a.m. to 1 p.m.
                                                    Patrice Drew, OIG Regulatory Officer,                   evaluation of individual intramural                     Agenda: To review and evaluate grant
                                                    External Affairs, (202) 619–1368.                       programs and projects conducted by the                applications.
                                                    SUPPLEMENTARY INFORMATION: In                           National Institute of Neurological                      Place: National Institutes of Health, 6701
                                                    accordance with the Privacy Act of 1974                 Disorders and Stroke, including                       Rockledge Drive, Bethesda, MD 20892
                                                    (5 U.S.C 552a), an agency is to publish                 consideration of personnel                            (Telephone Conference Call).
                                                    a notice in the Federal Register when                   qualifications and performance, and the                 Contact Person: Priscilla B. Chen, Ph.D.,
                                                    there is a revision, change, or addition                competence of individual investigators,               Scientific Review Officer, Center for
                                                    to its system of records. OIG is                        the disclosure of which would                         Scientific Review, National Institutes of
                                                    proposing to amend its system of                        constitute a clearly unwarranted                      Health, 6701 Rockledge Drive, Room 4104,
                                                                                                            invasion of personal privacy.                         MSC 7814, Bethesda, MD 20892, (301) 435–
                                                    records entitled ‘‘Consolidated Data                                                                          1787, chenp@csr.nih.gov.
                                                    Repository’’ (SORN 09–90–1000). OIG is                    Name of Committee: Board of Scientific                Name of Committee: Center for Scientific
                                                    adding record sources to the system.                    Counselors, National Institute of                     Review Special Emphasis Panel PAR Panel:
                                                    This system fulfills our responsibilities               Neurological Disorders and Stroke.
                                                                                                                                                                  NHLBI Systems Biology.
                                                    under the Inspector General Act of 1978                   Date: January 22–24, 2012.
                                                                                                                                                                    Date: January 19–20, 2012.
                                                    (5 U.S.C. App.) ‘‘to conduct and                          Time: 7 p.m. to 11:30 a.m.
                                                                                                                                                                    Time: 8 a.m. to 6 p.m.
                                                                                                              Agenda: To review and evaluate personal
                                                    supervise audits and investigations                                                                             Agenda: To review and evaluate grant
                                                                                                            qualifications and performance, and
                                                    relating to the programs and operations’’               competence of individual investigators.               applications.
                                                    of the Department of Health and Human                     Place: Hyatt Regency Bethesda, One                    Place: National Institutes of Health, 6701
                                                    Services (HHS). This amendment will                     Bethesda Metro Center, 7400 Wisconsin                 Rockledge Drive, Bethesda, MD 20892
                                                    assist OIG in performing timely and                     Avenue, Bethesda, MD 20814.                           (Virtual Meeting).
                                                    independent audits, evaluations and                       Contact Person: Alan P. Koretsky, Ph.D.,              Contact Person: Ai-Ping Zou, MD, Ph.D.,
                                                                                                            Scientific Director, Division of Intramural           Scientific Review Officer, Center for
                                                    inspections, and investigations of the                                                                        Scientific Review, National Institutes of
                                                    Medicare and Medicaid programs.                         Research, National Institute of Neurological
wreier-aviles on DSK3TPTVN1PROD with NOTICES




                                                                                                            Disorders and Stroke, NIH, 35 Convent Drive,          Health, 6701 Rockledge Drive, Room 4118,
                                                    SYSTEM NAME:                                            Room 6A908, Bethesda, MD 20892, (301)                 MSC 7814, Bethesda, MD 20892, (301) 435–
                                                                                                            435–2232, koretskya@ninds.nih.gov.                    1777, zouai@csr.nih.gov.
                                                      Consolidated Data Repository–HHS–                     (Catalogue of Federal Domestic Assistance             (Catalogue of Federal Domestic Assistance
                                                    OIG (SORN 09–90–1000).                                  Program Nos. 93.853, Clinical Research                Program Nos. 93.306, Comparative Medicine;
                                                                                                            Related to Neurological Disorders; 93.854,            93.333, Clinical Research; 93.306, 93.333,
                                                    RECORD SOURCE CATEGORIES:
                                                                                                            Biological Basis Research in the                      93.337, 93.393–93.396, 93.837–93.844,
                                                      Description of the Change: Remove                     Neurosciences, National Institutes of Health,         93.846–93.878, 93.892, 93.893, National
                                                    the current entry and in its place add                  HHS).                                                 Institutes of Health, HHS)



                                               VerDate Mar<15>2010   15:12 Dec 28, 2011   Jkt 226001   PO 00000   Frm 00043   Fmt 4703   Sfmt 4703   E:\FR\FM\29DEN1.SGM   29DEN1
